                     National Science Foundation • Office of Inspector General
                     4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230


MEMORANDUM

DATE:                 March 16, 2012


TO:                   Dr. Cora B. Marrett
                      Deputy Director, National Science Foundation

FROM:                 Dr. Brett M. Baker /s/
                      Assistant Inspector General for Audit

SUBJECT:              Audit of National Science Foundation’s Independent Research and
                      Development Program, Report No. 12–2-008

Attached please find the final report of our audit of NSF’s Independent Research and
Development (IR/D) program. The report contains one finding on the need for NSF to strengthen
management controls over the IR/D program.

In accordance with Office of Management and Budget Circular No. A-50, Audit Followup,
please provide a written corrective action plan within 60 days to address the report
recommendations. This corrective action plan should detail specific actions and milestone dates.

We appreciate the courtesies and assistance provided by the NSF staff during the audit. If you
have any questions, please contact Marie Maguire, Senior Audit Manager, at (703) 292-5009.

Attachment

cc:           Allison Lerner                 Fae Korsmo
              Michael Van Woert              Kathryn Rison
              Arthur Reilly                  Martha Rubenstein
              Cliff Gabriel                  John Lynskey
              Eugene Hubbard                 Susan Carnohan
              Judith Sunley                  Marie Maguire
              Christine Cataldo              Wendell Reid
              Fred Wendling                  Emily Franko
Audit of NSF’s Independent Research
     and Development Program




     National Science Foundation
     Office of Inspector General




            March 16, 2012
            OIG 12-2-008
Introduction

The National Science Foundation (NSF) is an independent federal agency whose
mission is “to promote the progress of science; to advance the national health,
prosperity, and welfare; and to secure the national defense.” To support this mission,
NSF funds approximately 20 percent of all federally-supported basic research
conducted at the nation’s colleges and universities, primarily through grants and
cooperative agreements. To accomplish this mission, NSF seeks to maintain a world-
class staff of scientists, engineers, and educators who bring current knowledge, insight,
and cutting-edge perspectives to the scientific and engineering research and education
funded by NSF.

To maintain its scientific workforce at the frontiers of discovery, NSF relies on authority
provided in the National Science Foundation Act of 1950, which gives the NSF Director
the authority to appoint or detail on a temporary basis, scientists, engineers, and other
technical and professional personnel on a leave of absence from academic, industrial,
or research institutions. With this authority, NSF supplements its permanent, career
employees with a variety of non-permanent staff, including temporary and limited term
appointments, as well as two “rotating” programs which allow staff to maintain their
relationships with their home institutions. These rotating programs are (1) the Visiting
Scientists, Engineers, and Educators (VSEE) program, which appoints staff as salaried
Federal employees for up to two years while on leave from their home institutions, and
(2) the Intergovernmental Personnel Act (IPA) of 1970 mobility program, which allows
staff to be detailed to NSF while remaining on the rolls of their home institutions. In the
latter case, IPA agreements are signed between NSF, the home institution, and the
employee; and payment for salary and benefits is made through a grant from NSF to the
home institution.


NSF’s Independent Research/Development (IR/D) Program
To assist in recruiting scientists actively involved in research, NSF's Independent
Research/Development (IR/D) Program permits employees and non-permanent staff to
maintain their professional competencies and remain actively involved with their
professional research while working at NSF. IR/D activities should relate to
accomplishing NSF's goals and are considered to be official duties.

IR/D participants must have a written plan, which is first approved by the supervisor, of
the proposed activities and estimates of working days away from NSF in a year and
NSF costs, including travel. Of 250 working days in a year, NSF policy allows IR/D
participants to spend up to 50 (20 percent) days a year on IR/D activities. The Office of
Information Resource Management (OIRM) reviews the plan to ensure it meets the
administrative requirements and then forwards it to the Office of General Counsel
(OGC) to review for Conflict of Interest issues and to brief the employee/IPA on any
legal issues involved with the individual’s IR/D activities.


                                            1
From 2004 to January 2011, the number of IR/D participants increased from 183 to
277. The 277 IR/D participants in January 2011 represented about 18 percent of NSF's
total workforce of approximately 1,500 staff. We determined that in calendar year (CY)
2010, 314 1 NSF staff completed over 1,900 expense reports in which they indicated
“IR/D” was the primary purpose of their trip. Their total charges for IR/D trips on these
expense reports was approximately $1.8 million, and the range per traveler varied from
approximately $225 to $45,000. 2




Within NSF's workforce, most of the IR/D travelers are IPAs, who typically travel to and
from their home institution to conduct research. In CY 2010, IPAs and VSEEs took
1,740 (90 percent) of the 1,928 IR/D primary trips.




1
  While there were 277 IR/D participants as of January 2011, there were 314 total NSF staff persons who took IR/D trips during CY
2010, which includes participants who left NSF before January 2011.

2
  Travel expense amounts are based on expense reports for calendar year 2010 that had been completed by travelers at the time of
our review; however we did not verify all reports. The amounts come from travelers’ self-reporting “IR/D Home” or “IR/D Other” as
the trip purpose and do not include any IR/D trips that were not coded as such. Furthermore, if trips combined IR/D travel and other
NSF work and the traveler coded the trip as “IR/D”, then the total cost of the trip was included in our IR/D travel amount.




                                                                 2
Permanent employees and VSEEs spending time away from NSF on approved IR/D
activities record their time as Official Business hours in NSF’s current time and
attendance system. Their IR/D travel expenses are charged to the Agency Operations
and Award Management (AOAM) appropriation in the NSF’s Financial Accounting
System. IPAs, however, are not required to track their time. IPA’s travel expenses are
charged to the program funds of their division. All IR/D participants use the FedTraveler
system to plan, book, track, obtain approval of, and request reimbursement for travel.
NSF employees and VSEEs are reimbursed for all allowable travel expenses in
accordance with the Federal Travel Regulation (FTR) for temporary duty travel. IPAs
who have relocated to NSF receive reimbursement for all allowable expenses in
accordance with FTR, while IPAs who have not relocated receive reimbursement of
transportation expenses and limited per diem.

In response to an OIG Office of Investigations’ September 2010 Management
Implication Report on a review of IR/D travel in Fiscal Year 2007, which identified
internal control deficiencies associated with the program, NSF formed an IR/D Task
Group to develop and implement changes to strengthen the oversight and accountability
of the IR/D program. The NSF Task Group included representatives from the science
directorates, OIRM, OGC, and the union.

The IR/D Task Group issued a final report on May 6, 2011 which contained several
recommendations on program scope, oversight mechanisms, automation, and training
and guidance. A significant recommendation from the Task Group’s report is that NSF
should include travel time in the calculation of IR/D days and the 50-day limit. Other
recommendations, which will improve management oversight of the program, included:
creating new accounting codes in the Financial Accounting System to compile and track
IR/D-related expenditures; configuring the new time and attendance system, planned for
release during 2012, to account for normal workday hours spent on IR/D activities for all
NSF staff except IPAs; automating the IR/D plan application and approval process;
developing a detailed procedural and informational guide to the IR/D program; and
providing periodic training sessions for IR/D participants. The recommendations from
the IR/D Task Group’s report are included in Appendix C.



                                            3
Results of Audit

Based on our audit we determined that in CY 2010 NSF lacked sufficient oversight
controls to properly monitor the IR/D program and had not fully assessed its impact on
travel costs, staff time, and NSF’s workload. In CY 2010, senior NSF managers
interviewed also had limited insight into the program and the related time and IR/D
travel costs at the agency level. Further, NSF had not identified the IR/D program’s
goals or quantified its outcomes. While NSF, in response to the OIG’s September 2010
Management Implication Report and the recommendations of its own IR/D Task Force,
has begun taking actions to improve controls over the IR/D program, our review
identified additional areas for improvement. Among other things, NSF could more
efficiently monitor IR/D costs with an agency-wide process to accumulate and track
information from the different NSF’s systems which contain the IR/D plans, time
tracking, financial and travel costs and activity. Agency management would also be
able to ensure that IR/D participants complied with program requirements if NSF
implemented a management control to proactively track and monitor IR/D time and
travel costs. A proactive alert will be especially critical when NSF implements the
change in policy to include travel days in the calculation of IR/D days, increasing the risk
of exceeding the 50-day limit.


NSF Should Strengthen Management Controls over the IR/D
Program

In CY 2010, senior NSF management had limited insight into the program’s travel and
time costs and lacked sufficient management controls to monitor the program. NSF had
separate systems, which each recorded limited aspects of IR/D activity, but no agency-
wide process existed to accumulate, track, and monitor this information. For example,
NSF management could not determine total annual travel costs for the IR/D program or
identify if individual travelers exceeded the 50-day limit. We obtained FedTraveler
information for all NSF travel and, after sorting and searching the information, estimated
CY 2010 travel costs for IR/D. The IR/D Task Group’s 2011 report recommended
system enhancements to automate IR/D plans and begin tracking time and costs after
the fact. The Task Group report also recommended an annual accounting of the
utilization of the IR/D program for the prior fiscal year. This annual accounting will
enable the agency, as well as individual divisions, directorates, and offices, to assess
how the program is being used and to inform future planning.

The recommendations in the Task Group report do not address the need to identify
goals for and determine the outcomes of the IR/D program. Agency management
should develop program goals and establish performance targets to measure progress
in achieving those goals. In addition, the agency should periodically evaluate program
outcomes and determine if changes are needed based on results and budgetary
challenges.



                                             4
The Task Group report also does not address the need for ensuring that budgets
associated with IR/D plans and time limitations associated with the IR/D program are
adhered to. We found that some divisions have begun to track IR/D costs on a limited
basis, but monitoring of IR/D travel was not done consistently agency-wide. A few IR/D
travelers and supervisors informed us that they now track travel days and costs within
their division. For example, one division developed a spreadsheet to track the time IR/D
participants have spent on IR/D activity for each individual trip. The division uses data
from the FedTraveler system and tracks IR/D days used per trip and cumulative days,
amount expended, and details of activities. Similarly, another division developed a
tracking spreadsheet and uses FedTraveler expense report data to track travel date,
purpose, and actual expenditure for all travel by division staff. Even though a few
divisions have begun to monitor IR/D time and costs, the agency would be better
positioned to monitor the program and ensure compliance with associated budgets and
time limitations if it developed a process to monitor IR/D time and costs agency-wide on
a real-time basis and provide proactive alerts when the number of travel days or costs is
approaching approved limits.

NSF did not have a clear policy on how IR/D days were to be calculated with respect to
the 50-day limit. The NSF Personnel Manual, Chapter III, subchapter 700, dated
February 6, 2003, states that “generally a participant’s IR/D activities may not exceed
50 days per year.” While this policy does not specifically state if travel days are to be
included or excluded from the 50 day limit, NSF officials had generally excluded travel
days. Section 9 of the IR/D plan, NSF Form 1309, updated November 2004, states “no
more than 50 days per calendar year can be approved.” The IR/D Task Group’s report
recommends that travel occurring during normal business hours is to be included as
part of the 50-days, but the report does not provide detailed instructions to clarify how to
calculate IR/D work and travel days. NSF also did not have detailed instructions on how
to track IR/D time for IPAs and how to record in the FedTraveler system trips which
include both IR/D and other NSF travel, such as outreach or a conference.

In addition, although the IR/D Task Group report notes the need for training of IR/D
participants on policies and procedures, the Task Group does not recommend that this
training be mandatory for participants and does not address the training needs for
supervisors and approving officials. Mandatory training for IR/D participants,
supervisors, and approving officials would help ensure that policies are clearly
understood and consistently followed throughout the agency. Many IR/D participants
we spoke with stated that they had received only limited guidance on how to complete
their plans or record travel.

Without an agency-wide tracking process and clear policies and procedures, NSF
management did not have the information it needed to accurately monitor IR/D time and
travel costs in CY 2010. As a result, we identified 9 staff, or 3 percent of the 314 IR/D
travelers, who spent between 51 and 67 work days on IR/D in CY 2010. These 9
individuals spent approximately $15,000 on IR/D travel that began after incurring 50
work days on IR/D. Because NSF’s proposed policy will now include travel time, there is
a risk that more IR/D participants may spend more than 50 IR/D days. If the newly



                                             5
proposed policy to include travel time had been in effect in CY 2010, 14 participants, or
4 percent, were away from NSF between 51 and 71 work days on IR/D 3.

In addition, the amount of IR/D activity varied between IPAs, VSEEs, and permanent
employees. In CY 2010, 8 of the 9 IR/D participants with more than 50 IR/D days were
IPAs and the remaining one was a VSEE. Six of these 9 participants took 20 or more
IR/D primary trips, and one of these 9 took 40 trips to the participant’s home institution
in 2010. Typically, IR/D travel for IPAs and VSEEs included weekend trips. More than
40 percent of all primary IR/D travel was for single weekend trips, which usually
included IPAs and VSEEs leaving NSF on a Wednesday, Thursday, or Friday for their
home institution and returning to Arlington, Virginia on a Sunday, Monday, or Tuesday.
Of the over 1,900 expense reports in 2010 which indicated IR/D was the primary
purpose of the trip, over half of the trips were for 3 working days or less, while 18
percent of the trips were for at least 7 working days. We did not review the details of
each trip to determine how many days were spent on IR/D and how many were for
another purpose, such as leave, telework, or other NSF work. The frequency and
length of the trips, which include travel time, leaves limited amount of continuous time to
focus on the research during each trip.

The range of IR/D travel costs varied considerably. In CY 2010, 198 (63 percent) of 314
IR/D participants with IR/D primary trips spent $5,000 or less on travel, while 39 (12
percent) of participants spent greater than $10,000. For example, one IPA submitted
expense reports for approximately $45,000 for IR/D primary trips. This IPA took 16
primary IR/D trips directly to the IPA’s home institution, at an average cost of almost
$1,130 per trip or approximately $18,000 total. This IPA also made 12 trips combining
travel to both the home institution and other locations for a cost of approximately
$27,000. Another IPA took 39 primary IR/D trips to the IPA’s home institution, most
often leaving Friday and returning Sunday or Monday at an average cost of about $850
per trip or approximately $33,000 total. This IPA also traveled to the home institution on
three other occasions, typically on the way to or returning from a non-IR/D conference
or activity. A third IPA also took 39 primary IR/D trips to the IPA’s home institution,
usually leaving Thursday and returning the following Monday, at an average cost of
approximately $475 per trip or nearly $18,600. This IPA also traveled to the home
institution on at least four other occasions, typically on the way to or returning from a
non-IR/D conference or activity. Finally, one IPA took 29 primary IR/D trips to the IPA’s
home institution in CY 2010 at an average cost of approximately $1,137 per trip or
nearly $33,000 despite being at NSF for only 7 full months during CY 2010. The IPA
most often left on Thursday or Friday and returned the following Monday or Tuesday.
Based on the frequency of the IPA’s travel, this further illustrates limited uninterrupted
time to spend on research.
  .
IR/D travelers we interviewed stated that they were aware of the need to balance their
NSF workload with IR/D research. Many told us that they frequently worked longer

3
 The OIG excluded travel days (or a portion thereof) where the IR/D participant left after (during) working day and returned to
Arlington in time for work.




                                                                 6
hours and occasionally combined telework days with IR/D days when at their home
institution. Nevertheless, time spent on IR/D activities, especially time beyond their plan
or above the 50-day limit, reduces time available to perform and complete NSF
responsibilities and workload, thereby affecting the productivity of their division or office.
The current limit of 50 days reduces staff availability for NSF work by 20 percent of the
250 workdays in a year.

NSF’s Personnel Manual does not provide guidance on any limits of travel expenses for
IR/D travel, and as noted previously the amount spent per person can vary
considerably, with 12 percent of the participants spending over $10,000 on IR/D related
trips in CY 2010. The Task Group’s May 2011 report does not recommend establishing
any limits for IR/D travel. In light of Executive Order 13589, Promoting Efficient
Spending, dated November 9, 2011, which requires Federal agencies to establish a
plan for reducing combined administrative costs, including travel, by not less than 20
percent below Fiscal Year 2010 levels in Fiscal Year 2013, the agency should consider
establishing a maximum dollar level for individual IR/D travel costs. If a manager wishes
to approve a plan with costs that exceed the cap, the request would need to be justified
and approved at a higher management level. The agency should also consider other
ways to reduce IR/D costs, including having participants make fewer trips of longer
duration or combine NSF telework with IR/D travel.

NSF senior management had not identified overall program goals, determined
outcomes, or regularly collected the results of participants’ IR/D research. IR/D
participants are required to indicate on their IR/D plans how they will report to NSF staff
regarding IR/D activities. The nine individuals we interviewed did not prepare a written
report of their research activities for their supervisor. Rather, they orally informed their
supervisors of their IR/D research results. Some participants indicated that they
circulated articles they read to colleagues, but none prepared a written report on the
results of their research. The Task Group report recommends that IR/D participants
should provide annually a short report which includes a brief description of the results of
the activities and any resulting research outputs. Obtaining this information would
provide NSF management useful information on the outcomes or benefits of this
program.

The Task Group report states that NSF could use data from the annual accounting to
evaluate the program and inform future planning. IR/D participants and supervisors we
interviewed generally believed that the IR/D program is essential to recruit individuals
who are actively involved in current scientific research, with almost all stating that they
would not have accepted the NSF position if the program did not exist. In light of
Executive Order 13589 and the impact of IR/D on workload and budgets, NSF needs to
determine the overall goals and benefits of the program to provide information to NSF
management to determine changes needed to promote more efficient and equitable
spending of government funds and to accomplish NSF’s mission.




                                              7
Recommendations

We recommend that the NSF Director:


   1. Take appropriate action to strengthen management controls over the IR/D
      program. Such actions could include:

             A) Identifying goals and outcomes for the program and tracking data to
             determine if the goals are met.

             B) Developing and implementing an agency-wide process to track planned
             and actual IR/D time and expenses for each IR/D participant on a real-
             time basis. IR/D participants and their supervisors should review this
             information on a continual basis to prevent time or costs from exceeding
             the budgeted amounts in the plan.

             C) Implementing the IR/D Task Group recommendations in the May 6,
             2011 report, but also requiring that training be mandatory for current and
             future IR/D participants and supervisors.

             D) Providing guidance on how to calculate IR/D work and travel days, as
             well as how to record trips which include both IR/D and other travel.


   2. Reevaluate the existing IR/D policy and practices to consider:

            A) If the 50 day limit for IR/D should be reduced, balancing NSF’s workload
              needs and the benefits of active involvement in research.

            B) Ways to reduce IR/D travel costs to meet the requirements of Executive
              Order 13589. For example, NSF management could establish an annual
              maximum dollar level for individual IR/D travel costs, requiring
              justification and approval for travel costs that are planned to exceed that
              level, and encourage IR/D participants to take fewer trips of longer
              duration or to combine NSF telework with IR/D travel.




                                           8
Summary of Agency Response and OIG Comments

NSF concurred with the OIG’s recommendations. NSF agreed that additional steps are
needed to strengthen management controls over the IR/D program. NSF also agreed to
reevaluate its existing policy on the 50 day limit for IR/D activities and to explore ways to
reduce IR/D travel costs to meet the requirements of Executive Order 13589.

We consider management’s comments and planned actions to be responsive to our
recommendations. We look forward to receiving the Corrective Action Plan and working
with NSF officials to confirm implementation.

We have included NSF's response to this report in its entirety as Appendix A.



OIG Contact and Staff Acknowledgements

Marie Maguire – Director of Performance Audits
(703) 292-5009 or mmaguire@nsf.gov

In addition to Ms. Maguire, Susan Carnohan, Wendell Reid, Emily Franko, and Jessica
Martin made key contributions to this report.




                                             9
Appendix A: Agency Response




                         10
11
Appendix B: Objective, Scope, and Methodology
The objective of this performance audit was to evaluate the effectiveness of NSF’s
oversight of the IR/D program and our scope was IR/D activity performed in calendar
year CY 2010. To establish a framework for assessing the IR/D program, we reviewed
relevant criteria that provided a perspective of the IR/D program. We reviewed NSF
policies and procedures, including relevant portions of NSF’s Personnel Manual,
Financial Management Policy Manual, Bulletins, and Conflicts of Interests and
Standards of Ethical Conduct Manual. To identify additional criteria for our audit, we
reviewed the September 2010 NSF-OIG Management Implication Report on IR/D travel,
general internal control standards, and other NSF-related background documents. To
further our understanding and develop a possible benchmark for the IR/D program, we
contacted other Federal agencies that had a similar mission of scientific research and
that also tended to employ IPAs on their staff to determine if they had a similar program.
The agencies that responded were the Department of Energy, National Institutes of
Health, U.S. Army Research Laboratory, and Defense Advanced Research Project
Agency. None of these agencies had a similar program.

We documented processes and identified relevant internal controls over the IR/D
program. In addition to our review of NSF policies and procedures, we interviewed NSF-
OIG Investigations’ staff that performed the work resulting in the September 2010 OIG
Management Implications report. We also met with the IR/D Task Group, attended the
two agency-wide IR/D forums organized by the Task Group, and reviewed its May 2011
report 4. We judgmentally selected one IPA, VSEE, and employee IR/D participant to
document how NSF divisions and systems compiled and tracked their IR/D activities.
As part of our transaction review, we interviewed three Division Directors from the
science Directorates as well as staff in the Office of Information and Resource
Management and the Division of Financial Management to gain an understanding of
their procedures and roles in the IR/D program. We obtained a data download in June
2011 of CY 2010 travel transactions from the FedTraveler system and performed data
mining to identify IR/D activity for further review. To calculate the IR/D travel days, we
filtered our FedTraveler download to identify and analyze IR/D travel expense reports
and itineraries, when available, and we reviewed IR/D plans for selected IR/D
participants. We interviewed a judgmental sample of nine IR/D participants based on
their 2010 travel records and type of position to get their perspective on the IR/D
program and to discuss their IR/D plan and travel.

We reviewed NSF’s compliance with its internal guidance for the IR/D program. We did
not identify any laws and regulations directly affecting the IR/D program. We did not
test for compliance with the Federal Travel Regulation (FTR). However, during the
course of our audit, we identified some instances of travelers not submitting their
expense reports within 5 working days after the trip is completed as required by FTR.


4
    The OIG’s Office of Investigations provided comments to the IR/D Task Group on their report.




                                                                 12
Through interviews with NSF staff and review of documentation, we also obtained an
understanding of the management controls over the IR/D program. We identified an
internal control deficiency on the lack of management controls to monitor the program,
which we discuss in this report. We did not identify any instances of fraud or illegal
acts. Except for some examples of high travel costs and days spent over the 50 day
limit, we did not identify any abuse.

During the course of this audit, the auditors relied on information and data received from
NSF in electronic format that had been entered into a computer system or that resulted
from computer processing. We tested the reliability of NSF’s computer-processed data
by corroborating the results with NSF officials independent of the computer system.
Because FedTraveler records only include expense reports that were submitted and
approved at the time of our download, they do not include any 2010 IR/D travel costs for
which expense reports had not yet been submitted. In addition, because most expense
report data is self-reported by the traveler and we did not verify all reports, our statistical
data may not include all IR/D travelers, trips, or costs. Based on our assessment, we
concluded the computer-processed data was sufficiently reliable to use in meeting the
audit’s objective.

We conducted this performance audit between November 2010 and February 2012, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

We held an exit conference with NSF management on February 9, 2012.




                                              13
Appendix C: Recommendations in the May 2011 IR/D Task
Group Report




                           14
15
16
17
18
19
20
